CLD-260
July 23, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1839
CHRISTOPHER THIEME, Appellant
VS.
UNITED STATES OF AMERICA
(D.N.J. 2-19-cv-15507)
Present:

JORDAN, KRAUSE and MATEY, Circuit Judges
Submitted are:
(1) Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and
(2) Appellant’s motion for appointment of counsel
in the above-captioned case.
Respectfully,

Clerk
ORDER
Appellant’s request for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). For substantially the same reasons given by the district Court, jurists of reason
would agree, Slack v. McDaniel. 529 (J.S. 473, 484 (2009), that appellant’s motion to
vacate sentence pursuant to 28 U.S.C. § 2255 was untimely filed. See 28 U.S.C.
§ 22.55(f)(1). Appellant has not made a substantial showing that the District Court erred in
declining to apply equitable tolling; among other problems, he has not .sufficiently
suggested that he diligently pursued his rights. See Holland v. Florida. 560 U.S. 631, 649
(2010). Thieme’s actual innocence claim, which attacks his conviction for murder for hire
on the ground that the statute is void for vagueness, goes,to degal, not factual, innocence.
See McQuiggin v. Perkins. 569 U.S. 383, 392, 399 (2013) (holding that actual innocence
can be asserted as a gateway to hear time-barred claims if a petitioner persuades the
“district court that, in light of the new evidence, no juror, acting reasonably, would have

A-\

^-

voted to find him guilty beyond a reasonable doubt”); Bouslev v. United States, 523 U.S.
614, 623 ('1998) (‘“[Ajctual innocence’ means factual innocence, not mere legal
insufficiency.”). To the extent that Appellant appeals the. .District Court’s denials of his
other motions, a certificate of appealability is denied because reasonable jurists would not
debate the correctness of the District Court’s rulings. The motion for appointment of
counsel is denied.
i

By the Court,
!

r>,>

s/Paul B. Matey

A.--’

Dated:
SLC/cc:

July 29, 2020
Christopher Thieme
Mark E. Coyne, Esq.

^ •*
o

mm

V-*

A True Copyh° ■

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

■h

/•

2

i.

■i

A ~2_

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 1 of 9 PagelD: 211

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
CHRISTOPHER THIEME,

Civil Action No. 19-15507 (SDW)

Petitioner,
v.

MEMORANDUM OPINION

UNITED STATES OF AMERICA,
Respondent.
IT APPEARING THAT:
1.

On December 22, 2016, this Court entered an amended judgment of conviction

sentencing Petitioner, Christopher Thieme to 210 months imprisonment. (Docket No. 16-294 at
ECFNo. 17). Petitioner did not appeal.
2. Two and a half years later, on or about June 14, 2019, Petitioner filed a motion
purporting to seek relief either under § 2255 or the writ of audita querela. (Docket No. 16-294 at
ECFNo. 18).
3. On June 27, 2019, this Court entered an order finding that Petitioner’s criminal motion
could only proceed as a motion to vacate sentence under 28 U.S.C. § 2255, and providing Petitioner
with the notice required by Castro v. United States, 540 U.S. 375 (2003). (Docket No. 16-294 at
ECF No. 19). Petitioner thereafter filed a response to that order, electing to have his previous
motion recharacterized as a § 2255 motion and to proceed on that motion. (Docket No. 16-294 at
ECF No. 20).
4. The Clerk of the Court therefore refiled Petitioner’s response and his prior motion as

his motion to vacate sentence in this matter. (ECF No. 1). Because Petitioner did not use the form
requiied for such motions filed by pro se petitioners, this Court thereafter administratively
1

3- l

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 2 of 9 PagelD: 212

terminated this matter until such time as Petitioner refiled his motion using the required foim.
(ECF No. 2).
5. On August 21, 2019, Petitioner refiled his motion on the required form. (ECF No. 4).
6. On September 3, 2019, this Court entered an order screening Petitioner’s motion to
vacate sentence and entered an order directing Petitioner to show cause why his motion should not
be dismissed as untimely filed. In that order, this Court found Petitioner’s motion untimely absent
some basis for tolling, explaining as follows:
Motions to vacate sentence are subject to a one year statute of
limitations which runs from the latest of several possible dates: the
date on which the petitioner’s conviction becomes final, the date on
which an impediment to making his motion is removed, the date on
which the Supreme Court first recognizes the claims raised where a
claim is based on a newly recognized right made retroactive to cases
on collateral review, or the date on which the facts supporting the
claim first could have been discovered through due diligence. 28
U.S.C. § 2255(f)(l)-(4). “In most cases, the operative date from
which the limitation period is measured will be... the date on which
the judgment of conviction becomes final.” Dodd v. United States,
545 U.S. 353, 357 (2005) (internal quotations omitted). Where a
petitioner fails to file a direct appeal, his conviction is considered
final, when the time for the filing of an appeal has run. See Kapral
v. United States, 166 F. 3d 565, 577 (3d Cir. 1999).
In this matter, Petitioner’s amended judgment of conviction
was entered on December 22, 2016. Docket No. 16-294 at ECF No.
17). Petitioner did not file an appeal, and his conviction therefore
became final fourteen days later on January 5, 2017. Kapral, 166.
F.3d at 577, Fed. R. App. P. 4(b)(l)(A)(i). Thus, absent some basis
for a start date other than the finality of his conviction or some basis
for equitable tolling. Petitioner’s one year limitations period had
elapsed as of January 5, 2018, well over a year before he filed his
initial audita querela petition which became the basis for his current
motion to vacate sentence in June 2019. (Docket No. 16-294 at ECF
No. 18).
In his habeas petition, Petitioner only argues one basis for an
alternative start date for the limitations period. Specifically, he
argues that the Supreme Court’s decision in Rosales-Mireles v.
United States, — U.S.
138 S. Ct. 1897 (2018), announced a new
2

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 3 of 9 PagelD: 213

rule of law on which his claims rely which should be made
retroactive to collateral relief cases. Pursuant to 28 U.S.C. §
2255(f)(3). the one year limitations period will run from “the date
on which the right asserted was initially recognized by the Supreme
Court” in those cases where “that right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review.” A petitioner seeking to take advantage of this
later start date must show that his claim relies on a rule of law
“newly recognized” by the Supreme Court, and that that newly
recognized right has been made retroactive to cases on collateral
review. Dodd, 545 U.S. at 358.
The underlying problem with Petitioner’s assertion that his
claim relies on Rosales-Mireles is that, even if this Court were to
assume that the case announced a new rule of law recognizing a new
right[,] his argument in no way relies on the issue discussed in
Rosales-Mireles. In Rosales-Mireles, the Supreme Court resolved.a
circuit split over the interpretation of Federal Rule of Criminal
Procedure 52(b). 138 S. Ct. at 1906. Specifically, the Court
resolved a split over whether and when a court of appeals should
grant relief on a claim of plain guidelines error on direct appeal
under the rule. Id. at 1906-1911. Thus, that case dealt with the
proper use^of discretion by a direct appellate court in determining
when a remand for a resentencing is warranted based on plain
guidelines error. Petitioner does not claim that the Court of Appeals
committed any error in applying Rule 52(b) - he cannot make such
a claim as he never filed a direct appeal. Rosales-Mirales is thus not
the basis for his claims, and cannot provide him a later start date of
the limitations period. Thus, absent some basis for tolling,
Petitioner’s current motion to vacate sentence remains time barred
by well over a year.
Although the § 2255 limitations period is subject to equitable
tolling where the facts of the matter so warrant, such tolling “is a
remedy which should be invoked ‘only sparingly.’” United States
v. Bass, 268 F. App’x 196, 199 (3d Cir. 2008) (quoting United States
v. Midgley, 142 F.3d 174, 179 (3d Cir. 1998)). Tolling therefore
only applies where a petitioner shows “(1) that he faced
‘extraordinary circumstances that stood in the way of timely filing,’
and (2) that he exercised reasonable diligence.” Johnson, 590 F.
App’x at 179 (quoting Pabon v. Mahanoy, 654 F.3d 385, 399 (3d
Cir. 2011)). Excusable neglect is insufficient to establish a basis for
equitable tolling. United States v. Thomas, 713 F.3d 165, 174 (3d
Cir. 2013).

3

'B -3

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 4 of 9 PagelD: 214

Petitioner does not present any basis for equitable tolling in
his motion, and this Court is aware of no such basis from the facts
presented. Because Petitioner did not address the equitable tolling
issue in his motion, however, this Court will permit Plaintiff one
opportunity to show why his motion to vacate sentence should not
be dismissed as time barred.
(ECF No. 5 at 2-4).
7. Following an extension, Petitioner thereafter filed a response to the Order (ECF No. 8),
as well as a motion seeking a declaratory judgment (ECF No. 10), and several motions seeking to
amend and supplement his motion to vacate sentence. (ECF Nos. 13-15). As this Court has
considered Petitioner’s amendments and supplements in deciding this matter, Petitioner’s motions
to amend and supplement his motion to vacate sentence (ECF Nos. 13-15) are granted only to the
extent that Petitioner requests consideration of his arguments.

As this Court will dismiss

Petitioner’s motion to vacate sentence as time barred for the reasons set forth below, Petitioner’s
motion seeking a declaratory judgment (ECF No. 10), which essentially sought a declaration that
he is entitled to relief, shall also be denied as moot in light of the dismissal of his motion to vacate
sentence.
8. In his post-Order to Show Cause briefing, Petitioner presents five claims - three in
which he challenges various issues with his sentence and restitution order, a claim in which he
argues his counsel was ineffective in failing to raise these arguments, and a new claim in which he
asserts that one of the statutes out of which his conviction arises

18 U.S.C. § 1958, which

criminalizes the use of interstate commerce in the commission of murder for hire — is
constitutionally void for vagueness. All of these claims were raised long after the one year statute

To the extent that Petitioner seeks to file a preemptive Rule 60(b) motion challenging a decision
this Court has not yet issued dismissing his petition as time barred (see ECF No. 12) that motion
is denied. A Rule 60(b) motion may only be filed to challenge an order or judgment issued by the
Court, it may not be used to attack a decision that has not yet been issued.
4

Case 2:1.9-cv-15507-SDW Document 16 Filed 03/24/20 Page 5 of 9 PagelD: 215

of limitations had run in this matter, and Petitioner’s claims would therefore be time barred unless
he can show a basis for equitable tolling, or a statutory basis for a later start date for the one year
statute of limitations.
9. Petitioner presents three arguments for why his claims should not be time barred - a
repetition of his already rejected argument that Rosales-Mireles should provide a later start date;
an argument in which he asserts that his new void for vagueness claim should have a later start
date as he believes that claim arises out of the Supreme Court’s decision in United States v. Davis,
— U.S. - 139 S. Ct. 2319 (2019), or should otherwise be permitted to proceed as he believes
he’s actual innocent because of his vagueness challenge; an argument in which he asserts that his
ineffective assistance of counsel claim arises out of Garza v. Idaho, — U.S. —

139 S. Ct. 738,

746 (2019), and should therefore be timely as such; and a general claim in which he asserts that he
should receive equitable tolling because he believes his plea agreement is unconstitutional and
otherwise led to a miscarriage ofjustice.
10. Initially, the Court notes that Petitioner’s Rosales-Mireles argument remains meritless
for the reasons expressed in the Court’s Order to Show Cause. Rosales-Mireles did not recognize
the right that Petitioner seeks to vindicate - it instead merely resolved a circuit split regarding
appellate procedure - and thus provides no basis for a later start date for the statute of limitations
for Petitioner’s claims.
11. Petitioner’s reliance on Garza is similarly misplaced. To the extent that Petitioner
intended to raise a claim that counsel proved ineffective in not filing a direct appeal on his behalf,2

2 Although Petitioner asserts in his response to the OTSC that he wished to raise such a claim
under Garza, he never sought to raise such a claim in his various amendments, and mentions Garza
only tangentially in his motion to vacate sentence. For the sake of this opinion, however, this
Court assumes Petitioner desired to raise such a claim as part of his ineffective assistance of
counsel ground for relief.
5

TS-S

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 6 of 9 PagelD: 216

Garza does not provide a later start date for the statute of limitations. In order to provide a later
start date, Garza would have had to newly recognize the right at issue, and that right would have
had to have been made retroactive to cases on collateral review. Docld, 545 U.S. at 358. As to the
first question, the Supreme Court in Garza did not recognize a new right - the Court by its own
logic was merely applying the rule announced in Roe v. Flores-Ortega, 528 U.S. 470 (2000), to
those circumstances where there was an applicable appellate waiver. Garza, 139 S. Ct. at 745-48
('‘reaffirmfing]” the applicability of Flores-Ortega notwithstanding an appellate waiver). Even
assuming arguendo that Garza had announced a new rule of constitutional law, a finding this Court
does not make, Petitioner would still not be entitled to a later start date because he cannot meet the
final requirement — that Garza has been made retroactive to cases on collateral review. Garza did
not on its face state or imply that it should be applied retroactively, nor has either the Supreme
Court or Third Circuit rendered the case retroactive to collateral review cases. Indeed, the few
district courts of which this Court is aware to have addressed the question have found to the
contrary. See, e.g., United States v. Price, No. 08-312, 2020 WL 516357, at *3 n. 1 (W.D. Pa. Jan.
23, 2020) (noting Garza has not been made retroactive); United States v. McGee, No. 16-95, 2019
WL 4248887, at *2 (E.D. Ky. Sept. 6, 2019) (Garza did not announce new rule and has not been
made retroactive and does not provide later date for § 2255(f) statute of limitations); United States
v. Gibson, Nos. 16-746,19-420,2019 WL 5213838, at *3 (D. Haw. Oct. 16, 2019) (same); Mac/c/m
v. Dowling, No. 19-375, 2019 WL 4727070, at * (W.D. Ok. Aug. 30, 2019) (same). As Garza
neither announced a new rule of law on which Petitioner relies, nor has been made retroactive to
cases on collateral review, Garza does not provide Petitioner with a later start date for his statute
of limitations. Dodcl, 545 U.S. at 358.

6

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 7 of 9 PagelD: 217

12. Petitioner’s reliance on Davis is also misplaced. Davis did not invent the void for
vagueness concept, nor did it apply it to the statute Petitioner wishes to challenge. See Davis, 139
S. Ct. at 2325, 2327-33 (collecting cases dating back to the late 19th century applying the void for
vagueness doctrine to various statutes and applying that rule- only to 18 U.S.C. § 924(c)).
Petitioner’s void for vagueness claim therefore does not arise out of any newly recognized right
created by Davis, and Davis therefore cannot provide Petitioner with a later start date for the
running of his limitations period.
13. Likewise, Petitioner’s claim that he is actually innocent is without merit. Although
actual innocence can serve as a gateway to pierce the § 2255(f) statute of limitations, see
McQuiggan v. Perkins, 569 U.S. 383, 391-99 (2013), Petitioner is not actually innocent of using
the means of interstate commerce to pursue a murder for hire in violation of 18 U.S.C. § 1958(a).
Petitioner bases his claim of innocence on the idea that § 1958(a) is “void for vagueness” because
certain prisoners have received multiple charges under the statute arising out of a single plot to
commit murder for hire which was enacted through multiple uses of the means of interstate
commerce, a practice the First Circuit disclaimed in United States v. Gordon, 875 F.3d 26, 31-37
(1st Cir. 2017). Contrary to Petitioner’s assertion, however, Gordon did not argue that this practice
rendered the statute void for vagueness, instead the First Circuit merely ruled that a defendant can
receive only one conviction arising out of the statute for each plot to commit murder for hire in
which he engaged, regardless of the number of phone calls, mailings, or use of interstate commerce
that plot involved. Id. at38. Petitioner’s guilty plea suffers from no such issue. Nothing Petitioner
has submitted nor which was discussed in Gordon in any way indicates that the elements of the
crime contained in § 1958(a) are vague. As the statute is clear about what conduct is prohibited —
the use of the means of interstate commerce to offer “anything of pecuniary value” to another with

7

u-y-

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 8 of 9 PagelD: 218

the intent that a murder be committed in violation of state and federal law - and as the statute is
not otherwise subject to the arbitrariness concerns that otherwise animate the void for vagueness
doctrine, Petitioner has not shown that the statute is unconstitutionally vague, and has thus not in
any way shown his “actual innocence.” He is therefore still fully subject to the one year limitations
period in this matter.
14. Finally, this Court has considered all of the arguments presented by Petitioner and
finds that he has failed to show any basis for equitable tolling as he has neither shown that he was
diligent nor that he was prevented from earlier raising his claims due to an extraordinary
circumstance. Johnson, 590 F. App’x at 179. Petitioner delayed two and a half years before
seeking to raise his challenges, and has failed to present any persuasive argument as to why he
could not have raised his claims sooner. That Petitioner agreed to a plea agreement that he now
dislikes is no extraordinary circumstance, and Petitioner may not evade the § 2255 time bar based
on his distaste for his earlier decisions. As this Court perceives no valid basis for equitable tolling
and as Petitioner has failed to show any legal basis for a later start date for his statute of limitations
in his various filings, Petitioner’s motion to vacate sentence (ECF No. 4) is dismissed with
prejudice as time barred.
15. Pursuant to 28 U.S.C. § 2253(c), the petitioner in a § 2255 proceeding may not appeal
from the final order in that proceeding unless he makes “a substantial showing of the denial of a
constitutional right.” “A petitioner satisfies this standard by demonstrating that jurists of reason
could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude that the issues presented here are adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). “When the district court denies a habeas [matter]
on procedural grounds without reaching the prisoner's underlying constitutional claim,

8

Case 2:19-cv-15507-SDW Document 16 Filed 03/24/20 Page 9 of 9 PagelD: 219

[Certificate of Appealability] should issue when the prisoner shows, at least, that jurists of reason
would find it debatable whether the [Petitioner’s § 2255 motion] states a valid claim of the denial
of a constitutional right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).

As jurists

of reason would not debate that Petitioner’s motion to vacate is clearly time barred, Petitioner has
failed to make a substantial showing of the denial of a constitutional right, and he is therefore
denied a certificate of appealability.
16. In conclusion, Petitioner’s motions to amend (ECF Nos. 12-15) are granted only to the
extent that this Court has considered Petitioner’s filings in this decision, Petitioner’s first motion
to amend (ECF No. 12) is DENIED to the extent Petitioner sought to file a pre-emptive motion
pursuant to Rule 60(b), Petitioner’s motion to vacate sentence (ECF No. 4) is DISMISSED WITH
PREJUDICE as time barred, Petitioner is DENIED a certificate of appealability, and Petitioner’s
motion seeking a declaratory judgment (ECF No. 10) is DENIED as moot in light of the dismissal
I

of his motion to vacate sentence. An appropriate order follows.

Dated: March 24, 2020

s/Susan D. Wigenton
Hon. Susan D. Wigenton,
United States District Judge

9

^-9

Case 2:19-cv-15507-SDW Document 17 Filed 03/24/20 Page 1 of 2 PagelD: 220

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
CHRISTOPHER THIEME,

Civil Action No. 19-15507 (SDW)

Petitioner,
v.

ORDER

UNITED STATES OF AMERICA,
Respondent.

This matter having come before the Court on pro se Petitioner Christopher Thieme’s
tesponse (ECF No. 8) to this Court’s order directing him to show cause why his motion to vacate
sentence should not be dismissed as time barred (ECF No. 5), as well as Petitioner’s motions
seeking a declaratory judgment (ECF No. 10), and seeking to amend and/or supplement his motion
to vacate sentence (ECF Nos. 12-15), the Court having considered the motion to vacate sentence
(ECF No. 4), Petitioner’s response, the record of proceedings in this matter, and Petitioner’s
motions, and for the reasons expressed in the accompanying memorandum opinion,
IT IS on this 24th day of March, 2020,
ORDERED that Petitioner’s motions seeking to amend or supplement his motion to vacate
sentence (ECF Nos. 12-15) are GRANTED solely to the extent that this Court has considered them
in ruling upon Petitioner’s motion to vacate; and it is further
ORDERED that Petitioner’s first motion to amend (ECF No. 12) is DENIED to the extent
Petitioner sought to file a pre-emptive Rule 60(b) motion before the entry of judgment in this
matter; and it is further
ORDERED that Petitioner’s motion to vacate sentence (ECF No. 4) is DISMISSED WITH
PREJUDICE as time barred; and it is further

12>-|o

Case 2:19-cv-15507-SDW Document 17 Filed 03/24/20 Page 2 of 2 PagelD: 221

ORDERED that Petitioner is DENIED a certificate of appealability; and it is further
ORDERED that Petitioner’s motion seeking a declaratory judgment (ECF No. 10) is
DENIED as moot in light of the dismissal of his motion to vacate sentence; and it is finally
ORDERED that the Clerk of the Court shall serve a copy of this Order and the
accompanying memorandum opinion on Petitioner by regular mail and shall CLOSE the file.

s/Susan D. Wisenfon
Hon. Susan D. Wigenton,
United States District Judge

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 1 of 7 PagelD: 49
AQ245C_(Mod._0/NJ12/06)Sheet 1 »Amended Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
District of New Jersey
UNITED STATES OF AMERICA

v.

CASE NUMBER

2.-16-CR-00294-SDW-1

CHRISTOPHER THIEME
Defendant.
AMENDED JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1,1987)
Date of Original Judgment: 12/19/2016
Reason for Amendment: Correction of Sentence for Clerical Mistake (Fed. R. Crim. P. 36)
The defendant, CHRISTOPHER THIEME, was represented by PATRICK N. MCMAHON, AFPD.
The defendant pleaded guilty to count(s) 1,2 of the INFORMATION on 6/21/2016.
that the defendant is guilty of the following offense(s):

Accordingly, the court has adjudicated

Title & Section

Nature of Offense

Date of Offense

Count
Numberisi

18:1958(A) AND
1201(D)

ATTEMPT TO KIDNAP/MURDER AND COMMIT THEFT OF
PROPERTY

1/4/2016

1

18:1958(A) AND
1201(D)

RACKETEERING - MURDER

12/2015

2

As pronounced on December 19, 2016, the defendant is sentenced as provided in pages 2 through 7 of this
judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay to the United States a special assessment of $200.00 for count(s) 1,2,
which shall be due immediately. Said special assessment shall be made payable to the Clerk, U.S. District Court.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant shall notifyJhe court and United States attorney of any
material change in the defendant’s economic circumstances.
JJ
Signed this 22nd day of December, 2016.

07105

c-\

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 2 of 7 PagelD: 50
AQ245C (Moa. O/NJ 12J06)Sheel 2 - Imprisonment

Judgment - Page 2 of 7

Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
term of 210 months, consisting of 210 months on Count One and 120 months on Count Two to be served concurrently to
each other.
The defendant shall remain in custody pending service of sentence.

RETURN
I have executed this Judgment as follows:

Defendant delivered on
At

To
with a certified copy of this Judgment.

United States Marshal
By
Deputy Marshal

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 3 of 7 PagelD: 51
AQ245C (Mod. 0/NJ 12/06)Sheet 3 - Supervised Release

Judgment - Page 3 of 7
Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 3 years. This term
consists of terms of 3 years on each of Counts One and Two, both terms to run concurrently.
Within 72 hours of release from custody of the Bureau of Prisons, the defendant shall report in person to the Probation
Office in the district to which the defendant is released.
While on supervised release, the defendant shall comply with the standard conditions that have been adopted by this
court as set forth below.
The defendant shall submit to one drug test within 15 days of commencement of supervised release and at least two
tests thereafter as determined by the probation officer.
If this judgment imposes a fine, special assessment, costs, or restitution obligation, it shall be a condition of supervised
release that the defendant pay any such fine, assessments, costs, and restitution that remains unpaid at the commencement of
the term of supervised release and shall comply with the following special conditions:
'

COMPUTER MONITORING
You shall submit to an initial inspection by the U.S. Probation Office, and to any unannounced examinations during
supervision, of your computer equipment. This includes, but is not limited to, personal computer, personal digital
assistants, entertainment consoles, cellular telephones, and/or any electronic media device which is owned or
accessed by you. You shall allow the installation on your computer of any hardware or software systems which
monitor computer use. You shall pay the costs of the computer monitoring program. You shall abide by the standard
conditions of computer monitoring. Any dispute as to the applicability of this condition shall be decided by the Court.
MENTAL HEALTH TREATMENT
You shall undergo treatment in a mental health program approved by the United States Probation Office until
discharged by the Court. As necessary, said treatment may also encompass treatment for gambling, domestic
violence and/or anger management, as approved by the United States Probation Office, until discharged by the
Court. The Probation Officer shall supervise your compliance with this condition.
NEW DEBT RESTRICTIONS
You are prohibited from incurring any new credit charges, opening additional lines of credit, or incurring any new
monetary loan, obligation, or debt, by whatever name known, without the approval of the U.S. Probation Office. You
shall not encumber or liquidate interest in any assets unless it is in direct service of the fine and/or restitution
obligation or otherwise has the expressed approval of the Court.

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 4 of 7 PagelD: 52
AQ245C (Mod. Q/NJ 12/06)Sheet 3 - Supervised Release

Judgment - Page 4 of 7
Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

RETURN
I have executed this Judgment as follows:

Defendant delivered on
At

To
with a certified copy of this Judgment.

United States Marshal
By
Deputy Marshal

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 5 of 7 PagelD: 53
A0245C (Mod. O/NJ 12/06)Sheet 3a - Supervised Release

Judgment - Page 5 of 7
Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

STANDARD CONDITIONS OF SUPERVISION
While the defendant is on supervised release pursuant to this Judgment:
1) The defendant shall not commit another federal, state, or local crime during the term of supervision.
2) The defendant shall not illegally possess a controlled substance.
3)

If convicted of a felony offense, the defendant shall not possess a firearm or destructive device.

4) The defendant shall not leave the judicial district without the permission of the court or probation officer.
5) The defendant shall report to the probation officer in a manner and frequency directed by the Court or probation officer.
6) The defendant shall answer truthfully all inquiries by the probation, officer and follow the instructions of the probation
officer.
7) The defendant shall support his or her dependents and meet other family responsibilities.
8) The defendant shall work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons.
9) The defendant shall notify the probation officer within seventy-two hours of any change in residence or employment.
10) The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute or
administer any narcotic or other controlled substance, or any paraphernalia related to such substances.
11) The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or
administered.
12) The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any
person convicted of a felony unless granted permission to do so by the probation officer.
13) The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer.
14) The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law
enforcement officer.
15) The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the court.
16) As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the
defendant’s criminal record or personal history or characteristics, and shall permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.
.17) You shall cooperate in the collection of DNA as directed by the Probation Officer.
(This standard condition would apply when the current offense or a prior federal offense is either a felony, any offense
under Chapter 109A of Title 18 (i.e., §§ 2241-2248, any crime of violence [as defined in 18 U.S.C. § 16], any attempt or
conspiracy to commit the above, an offense under the Uniform Code of Military Justice for which a sentence of
confinement of more than one year may be imposed, or any other offense under the Uniform Code that is comparable
to a qualifying federal offense);
18) Upon request, you shall provide the U.S. Probation Office with full disclosure of your financial records, including co­
mingled income, expenses, assets and liabilities, to include yearly income tax returns. With the exception of the

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 6 of 7 PagelD: 54
AQ245C (Mod. 0/NJ 12/06)Sheet 3a - Supervised Release

Judgment - Page 6 of 7
Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

financial accounts reported and noted within the presentence report, you are prohibited from maintaining and/or
opening any additional individual and/or joint checking, savings, or other financial accounts, for either personal or
business purposes, without the knowledge and approval of the U.S. Probation Office. You shall cooperate with the
Probation Officer in the investigation of your financial dealings and shall provide truthful monthly statements of your
income. You shall cooperate in the signing of any necessary authorization to release information forms permitting the
U.S. Probation Office access to your financial information and records;
19) As directed by the U.S. Probation Office, you shall participate in and complete any educational, vocational, cognitive or
any other enrichment program offered by the U.S. Probation Office or any outside agency or establishment while under
supervision;
20) You shall not operate any motor vehicle without a valid driver’s license issued by the State of New Jersey, or in the
state in which you are supervised. You shall comply with all motor vehicle laws and ordinances and must report all
motor vehicle infractions (including any court appearances) within 72 hours to the U.S. Probation Office;

For Official Use Only - - - U._S. Probatjon_qffice_____ _______________________
Upon a finding of a violation of probation or supervised release, I Understand that the Court may (1) revoke supervision
or (2) extend the term of supervision and/or modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions, and have been provided a copy of them.
You shall carry out all rules, in addition to the above, as prescribed by the Chief U.S. Probation Officer, or any of his
associate Probation Officers.
(Signed).
Defendant

U.S. Probation Officer/Designated Witness

Date

Date

C.'-(o

Case 2:16-cr-00294-SDW Document 17 Filed 12/22/16 Page 7 of 7 PagelD: 55
A0245C (Mod. O/NJ 12/06)Sheet 6 - Restitution and Forfeiture

Judgment - Page 7 of 7

Defendant: CHRISTOPHER THIEME
Case Number: 2:16-CR-00294-SDW-1

RESTITUTION AND FORFEITURE
RESTITUTION
The defendant shall make restitution in the amount of $1,033.50. Payments should be made payable to the U.S. Treasury
and mailed to Clerk, U.S.D.C., 402 East State Street, Rm 2020, Trenton, New Jersey 08608, for distribution to:
J.B.
(address to be submitted separately.)

The restitution is due immediately. It is recommended that the defendant participate in the Bureau of Prisons Inmate
Financial Responsibility Program (IFRP). If the defendant participates in the IFRP, the restitution shall be paid from those
funds at a rate equivalent to $25 every 3 months. In the event the entire restitution is not paid prior to the commencement
of supervision, the defendant shall satisfy the amount due in monthly installments of no less than $50.do, to commence 30
days after release from confinement.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made through the
Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4)
fine principal, (5) community restitution, (6) fine interest, (7) penalties, and (8) costs, including cost of prosecution and court
costs.

TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS - Certiorari Petition - App D
DATE: 09/22/2020 11:08 PM
APPENDIX D
CONSTITUTIONAL PROVISIONS
Article I, Section 1 - the "Vesting Clause"
"All legislative Powers herein granted shall be vested in a Congress of the United States, which shall consist of
a Senate and House of Representatives."
Article II, Section 1, Clause 2 - the "Vesting Clause"
"The executive Power shall be vested in a President of the United States of America...."
Article III, Section 1 - the "Vesting Clause"
"The judicial Power of the United States, shall be vested in one supreme Court and in such inferior Courts as the
Congress may from time to time ordain and establish."
Article I, Section 9, Clause 2 - the "Suspension Clause"
"The Privilege of the Writ of Habeas Corpus shall not be suspended unless When in Cases of Rebellion or Invasion
the public Safety may require it."
Amendment V
"No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property be taken for public
use, without just compensation."
Amendment VI
-

"In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation, to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence."
Amendment VIII
"Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual punishment inflicted."
Amendment XIV, Section 1 - the "Equal Protection Clause"
"All person born or naturalized in the United States, and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its jurisdiction the equal
equal protection of the laws."
r

V

§ 1958. Use of interstate commerce facilities in the commission of
murder-for-hire
(a) Whoever travels in or causes another (including the intended victim) to travel in interstate
or foreign commerce, or uses or causes another (including the intended victim) to use the mail or
any facility of interstate or foreign commerce, with intent that a murder be committed in violation
of the laws of any State or the United States as consideration for the receipt of, or as
consideration for a promise or agreement to pay, anything of pecuniary value, or who conspires to
do so, shall be fined under this title or imprisoned for not more than ten years, or both; and if
personal injury results, shall be fined under this title or imprisoned for not more than twenty years,
or both; and if death results, shall be punished by death or life imprisonment, or shall be fined not
more than $250,000, or both.
(b) As used in this section and section 1959 [18 USCS § 1959]—
(1) “anything of pecuniary value” means anything of value in the form of money, a
negotiable instrument, a commercial interest, or anything else the primary significance of which is
economic advantage;
(2) “facility of interstate or foreign commerce” includes means of transportation and
communication; and
(3) “State” includes a State of the United States, the District of Columbia, and any
commonwealth, territory, or possession of the United States.

USCS

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

>2Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

69451050:

§ 3663A. Mandatory restitution to victims of certain crimes

(a) (1) Notwithstanding any other provision of law, when sentencing a defendant convicted of
an offense described in subsection (c), the court shall order, in addition to, or in the case of a
misdemeanor, in addition to or in lieu of, any other penalty authorized by law, that the defendant
make restitution to the victim of the offense or, if the victim is deceased, to the victim’s estate.
(2) For the purposes of this section, the term “victim” means a person directly and
proximately harmed as a result of the commission of an offense for which restitution may be
ordered including, in the case of an offense that involves as an element a scheme, conspiracy, or
pattern of criminal activity, any person directly harmed by the defendant’s criminal conduct in the
course of the scheme, conspiracy, or pattern. In the case of a victim who is under 18 years of age,
incompetent, incapacitated, or deceased, the legal guardian of the victim or representative of the •
victim’s estate, another family member, or any other person appointed as suitable by the court,
may assume the victim’s rights under this section, but in no event shall the defendant be named as
such representative or guardian.
(3) The court shall also order, if agreed to by the parties in a plea agreement, restitution to
persons other than the victim of the offense.
(b) The order of restitution shall require that such defendant—
(1) in the case of an offense resulting in damage to or loss or destruction of property of a
victim of the offense—
(A) return the property to the owner of the property or someone designated by the
owner; or
(B) if return of the property under subparagraph (A) is impossible, impracticable,
or inadequate, pay an amount equal to—
(i) the greater of—
(I) the value of the property on the date of the damage, loss, or
destruction; or.
(II) the value of the property on the date of sentencing, less

uses

1

© 2020 Matthew Bender & Company Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

S845103Q
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

(ii) the value (as of the date the property is returned) of any part of the
property that is returned;
(2) in the case of an. offense resulting in bodily injury to a victim—
(A) pay an amount equal to the cost of necessary medical and related professional
services and devices relating to physical, psychiatric, and psychological care, including nonmedical
care and treatment rendered in accordance with a method of healing recognized by the law of the
place of treatment;
(B) pay an amount equal to the cost of necessary physical and occupational
therapy and rehabilitation; and
(C) reimburse the victim for income lost by such victim as a result of such offense;
(3) in the case of an offense resulting in bodily injury that results in the death of the victim,
pay an amount equal to the cost of necessary funeral and related services; and
(4) in any case, reimburse the victim for lost income and necessary child cafe,
transportation, and other expenses incurred during participation in the investigation or
prosecution of the offense or attendance at proceedings related to the offense.

(c) (1) This section shall apply in all sentencing proceedings for convictions of, or plea
agreements relating to charges for, any offense—
(A) that is
(i) a crime of violence, as defined in section 16 [18 USCS § 16];
(ii) an offense against property under this title, or under section 416(a) of
the Controlled Substances Act (21 U.S.C. 856(a)), including any offense committed by fraud or
deceit;
(iii) an offense described in section 1365 [18 USCS § 1365] (relating to
tampering with consumer products); or
(iv) an offense under section 670 [18 USCS § 670] (relating to theft of
medical products); and
(B) in which an identifiable victim or victims has suffered a physical injury or
pecuniary loss.
USCS

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050.
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

(2) In the case of a plea agreement that does not result in a conviction for an offense
described in paragraph (1), this section shall apply only if the plea specifically states that an
offense fisted under such paragraph gave rise to the plea agreement.
(3) This section shall not apply in the case of an offense described in paragraph (l)(A)(ii)
if the court finds, from facts on the record, that—
(A) the number of identifiable victims is so large as to make restitution
impracticable; or
(B) determining complex issues of fact related to the cause or amount of the
victim’s losses would complicate or prolong the sentencing process to a degree that the need to
provide restitution to any victim is outweighed by the burden on the sentencing process.
(d) An order of restitution under this section shall be issued and enforced in accordance with
section 3664 [18 USCS § 3664],

uses

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. Ail rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

'5
69451050

Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming
the right to be released upon the ground that the sentence was imposed in violation of the
Constitution or laws of the United States, or that the court was without jurisdiction to impose
such sentence, or that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack, may move the court which imposed the sentence to vacate,
set aside or correct the sentence.
(b) Unless the motion and the files and records of the case conclusively show that the prisoner
is entitled to no relief, the court shall cause notice thereof to be served upon the United States
attorney, grant a prompt hearing thereon, determine the issues and make findings of fact and
conclusions of law with respect thereto. If the court finds that the judgment was rendered without
jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to
collateral attack, or that there has been such a denial or infringement of the constitutional rights of
the prisoner as to render the judgment vulnerable to collateral attack, the court shall vacate and
set the judgment aside and shall discharge the prisoner or resentence him or grant a new trial or
correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the
prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as
from the final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is authorized to
apply for relief by motion pursuant to this section, shall not be entertained if it appears that the
applicant has failed to apply for relief, by motion, to the court which sentenced him, or that such
court has denied him relief, unless it also appears that the remedy by motion is inadequate or
ineffective to test the legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The limitation
period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action
in violation of the Constitution or laws of the United States is removed, if the movant was
prevented from making a motion by such governmental action;

uses

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

©8451.050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

(3) the date on which the right asserted was initially recognized by the Supreme Court, if
that right has been newly recognized by the Supreme Court and made retroactively applicable to
cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act [21 USCS § 848], in
all proceedings brought under this section, and any subsequent proceedings on review, the court
may appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to
statutory authority. Appointment of counsel under this section shall be governed by section
3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 [28 USCS §
2244] by a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in fight of the evidence as a
whole, would be sufficient to establish by clear and convincing evidence that no reasonable
factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

USCS

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

yU

Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

s. s.s,

i v .4'

(a)

Base Offense Level (Apply the greater):

(1)

32; or

(2)

the offense level applicable to the underlying unlawful conduct.

Commentary Statutory Provision: 18 U.S.C. § 1958 (formerly 18 U.S.C. § 1952A). Application Note:
1.
If the underlying conduct violates state law, the offense level corresponding to the mostanalogous
federal offense is to be used.
Background: This guideline and the statute to which it applies do not require that a murderactually have
been committed.
Historical
Note

Effective November 1, 1987. Amended effective November 1, 1989 (amendment 144); November 1, 1990
(amendment 311); November 1,1992 (amendment 449).

hucsent

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

%

89451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

§2A1.5. Conspiracy or Solicitation to Commit Murder

(a)

Base Offense Level: 33

(b)

Specific Offense Characteristic

If the offense involved the offer or the receipt of anything ofpecuniary value for undertaking the
(1)
murder, increase by 4 lev-els.

(c)

Cross References

(1)

If the offense resulted in the death of a victim, apply §2A1.1 (First Degree Murder).

If the offense resulted in an attempted murder or assault withintent to commit murder, apply
§2A2.1 (Assault with Intent toCommit Murder; Attempted Murder).

(2)

Commentary
Statutory Provisions: 18U.S.C. §§ 351(d), 371, 373, 1117, 1751(d).
Historical
Note

Effective November 1, 1990 (amendment 311). Amended effective November 1, 2004 (amendment 663).

hucsent

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451060
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

§3D1.2. Groups of Closely Related Counts
All counts involving substantially the same harm shall be grouped to-gether into a single Group. Counts
involve substantially the same harm within the meaning of this rule:

(a)

When counts involve the same victim and the same act or transac-tion.

When counts involve the same victim and two or more acts or trans-actions connected by a
(b)
common criminal objective or constitutingpart of a common scheme or plan.
When one of the counts embodies conduct that is treated as a spe-cific offense characteristic in, or
(c)
other adjustment to, the guidelineapplicable to another of the counts.
When the offense level is determined largely on the basis of the total amount of harm or loss, the
(d)
quantity of a substance involved, or some other measure of aggregate harm, or if the offense behavior is
ongoing or continuous in nature and the offense guideline is written to cover such behavior.
Offenses covered by the following guidelines are to be grouped un-der this subsection:
§2A3'.5;
§§2B1.1, 2B1.4, 2B1.5, 2B4.1, 2B5.1, 2B5.3, 2B6.1;
§§2C1.1, 2C1.2, 2C1.8;
§§2D1.1, 2D1.2, 2D1.5, 2D1.11, 2D1.13;
§§2E4.1, 2E5.1;
§§2G2.2, 2G3.1;
§2K2.1;
§§2L1.1, 2L2.1;
§2N3.1;
§2Q2.1;
§2R1.1;
§§2S1.1, 2S1.3;

hucsent

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

6845105 G:
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

§§2T1.1, 2T1.4, 2T1.6, 2T1.7, 2T1.9, 2T2.1, 2T3.1.
Specifically excluded from the operation of this subsection are:
all offenses in Chapter Two, Part A (except §2A3.5); §§2B2.1, 2B2.3, 2B3.1, 2B3.2, 2B3.3;
§2C1.5;§§2D2.1, 2D2.2, 2D2.3; §§2E1.3, 2E1.4, 2E2.1;§§2G1.1, 2G2.1;§§2H1.1, 2H2.1, 2H4.1;
§§2L2.2, 2L2.5;§§2M2.1, 2M2.3, 2M3.1, 2M3.2, 2M3.3, 2M3.4, 2M3.5, 2M3.9; §§2P1.1, 2P1.2, 2P1.3;
§2X6.1.
For multiple coimts of offenses that are not listed, grouping underthis subsection may or may not be
appropriate; a case-by-case de-termination must be made based upon the facts of the case and the
applicable guidelines (including specific offense characteristics andother adjustments) used to determine the
offense level.
Exclusion of an offense from grouping under this subsection doesnot necessarily preclude grouping under
another subsection.
Commentary
Application Notes:
1
Subsections (a)-(d) set forth circumstances in which counts are to be grouped together into a single
Group. Counts are to be grouped together into a single Group if any one ormore of the subsections provide
for such grouping. Counts for which the statute (A) spec-ifies a term of imprisonment to be imposed; and
(B) requires that such term of imprison-ment be imposed to run consecutively to any other term of
imprisonment are exceptedfrom application of the multiple count rules. See §3D1.1(b)(1); id., comment.
(n.l).
The term “victim” is not intended to include indirect or secondary victims. Generally, there will be
one person who is directly and most seriously affected by the offense and istherefore identifiable as the
victim. For offenses in which there are no identifiable victims (e.g., drug or immigration offenses, where
society at large is the victim), the “victim” forpurposes of subsections (a) and (b) is the societal interest that
is harmed. In such cases, the counts are grouped together when the societal interests that are harmed are
closelyrelated. Where one count, for example, involves unlawfully entering the United Statesand the other
involves possession of fraudulent evidence of citizenship, the counts aregrouped together because the
societal interests harmed (the interests protected by laws governing immigration) are closely related. In
contrast, where one count involves the saleof controlled substances and the other involves an immigration
2

hucsent

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

law violation, the counts are not grouped together because different societal interests are harmed.
Ambiguities should be resolved in accordance with the purpose of this section as stated in the
leadparagraph, i. e., to identify and group “counts involving substantially the same harm.”
Under subsection (a), counts are to be grouped together when they represent essentially a single
injury or are part of a single criminal episode or transaction involving the samevictim.
3

When one count charges an attempt to commit an offense and the other charges the corn-mission of that
offense, or when one count charges an offense based on a general prohi-bition and-the other charges
violation of a specific prohibition encompassed in the generalprohibition, the counts will be grouped
together under subsection (a).
Examples: (1) The defendant is convicted of forging and uttering the same check. The Counts are to be
grouped together. (2) The defendant is convicted of kidnapping and as-saulting the victim during the course
of the kidnapping. The counts are to be groupedtogether. (3) The defendant is convicted of bid rigging (an
antitrust offense) and of mail fraud for signing and mailing a false statement that the bid was competitive.
The counts are to be grouped together. (4) The defendant is convicted of two counts of assault on a federal
officer for shooting at the same officer twice while attempting to prevent appre-hension as part of a single
criminal episode. The counts are to be grouped together.
(5) The defendant is convicted of three counts of unlawfully bringing aliens into the United States, all
counts arising out of a single incident. The three counts are to be
grouped together. But: (6) The defendant is convicted of two counts of assault on a federal officer for
shooting at the officer on two separate days. The counts are not to be grouped together.
Subsection (b) provides that counts that are part of a single course of conduct with asingle criminal
objective and represent essentially one composite harm to the same vic-tim are to be grouped together, even
if they constitute legally distinct offenses occurringat different times. This provision does not authorize the
grouping of offenses that cannotbe considered to represent essentially one composite harm (e.g., robbery of
the same vic-tim on different occasions involves multiple, separate instances of fear and risk of harm, not
one composite harm).

4.

■ When one count charges a conspiracy or solicitation and the other charges a substantive offense that was •
the sole object of the conspiracy or solicitation, the counts will be groupedtogether under subsection (b).
Examples: (1) The defendant is convicted of one count of conspiracy to commit extortionand one count of
hucsent

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

extortion for the offense he conspired to commit. The counts are to begrouped together. (2) The defendant
is convicted of two counts of mail fraud and one count of wire fraud, each in furtherance of a single
fraudulent scheme. The counts are to be grouped together, even if the mailings and telephone call occurred
on different days.

(3) The defendant is convicted of one count of auto theft and one count of altering thevehicle identification
number of the car he stole. The counts are to be grouped together.

(4) The defendant is convicted of two counts of distributing a controlled substance, eachcount involving a
separate sale of 10 grams of cocaine that is part of a common schemeor plan. In addition, a finding is made
that there are two other sales, also part of the common scheme or plan, each involving 10 grams of cocaine.
The total amount of all four sales (40 grams of cocaine) will be used to determine the offense level for each
countunder § IB 1.3(a)(2). The two counts will then be grouped together under either this sub-section or
subsection (d) to avoid double counting. But. (5) The defendant is convicted oftwo counts of rape for
raping the same person on different days. The counts are not to be grouped together.

Subsection (c) provides that when conduct that represents a separate count, e.g., bodily injury or
obstruction of justice, is also a specific offense characteristic in or other adjust-ment to another count, the
count represented by that conduct is to be grouped with the count to which it constitutes an aggravating
factor. This provision prevents “double counting” of offense behavior. -Of course, this rule applies only if
the offenses are closely related. It is not, for example, the intent of this rule that (assuming they could be
joinedtogether) a bank robbery on one occasion and an assault resulting in bodily injury onanother occasion
be grouped together. The bodily .injury (the harm from the assault) would not be a specific offense
characteristic to the robbery and would represent a differ-ent harm. On the other hand, use of a firearm in a
bank robbery and unlawful possession of that firearm are sufficiently related to warrant grouping of counts
under this subsec-tion. Frequently, this provision will overlap subsection (a), at least with respect to
specificoffense characteristics. However, a count such as obstruction of justice, which representsa Chapter
Three adjustment and involves a different harm or societal interest than the underlying offense, is covered
by subsection (c) even though it is not covered by subsec-tion (a).
5.

Sometimes there may be several counts, each of which could be treated as an aggravating factor to another
more serious count, but the guideline for the more serious count pro-vides an adjustment for only one
hucsent

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

occurrence of that factor. In such cases, only the countrepresenting the most serious of those factors is to
be grouped with the other count. For
example, if in a robbery of a credit union on a military base the defendant is also convicted of assaulting
two employees, one of whom is injured seriously, the assault with serious bodily injury would be grouped
with the robbery count, while the remaining assault con-viction would be treated separately.
A cross reference to another offense guideline does not constitute “a specific offense char-acteristic ... or
other adjustment” within the meaning of subsection (c). For example, theguideline for bribery of a public
official contains a cross reference to the guideline for a conspiracy to commit the offense that the bribe was
to facilitate. Nonetheless, if the de-fendant were convicted of one count of securities fraud and one count of
bribing a public official to facilitate the fraud, the two counts would not be grouped together by virtue of
the cross reference. If, however, the bribe was given for the purpose of hampering a crim-inal investigation
into the offense, it would constitute obstruction and under §3C 1.1 would result in a 2-level enhancement to
the offense level for the fraud. Under the latter circumstances, the counts would be grouped together.
6.
Subsection (d) likely will be used with the greatest frequency. It provides that most prop-erty
crimes (except robbery, burglary, extortion and the like), drug offenses, firearmsoffenses, and other crimes
where the guidelines are based primarily on quantity or con-template continuing behavior are to be grouped
together. The list of instances in whichthis subsection should be applied is not exhaustive. Note, however,
that certain guide-lines are specifically excluded from the operation of subsection (d).
i

A conspiracy, attempt, or solicitation to commit an offense is covered under subsection
(d) if the offense that is the object of the conspiracy, attempt, or solicitation is coveredunder subsection (d).
Counts involving offenses to which different offense guidelines apply are grouped to-gether under
subsection (d) if the offenses are of the same general type and otherwisemeet the criteria for grouping under
this subsection. In such cases, the offense guidelinethat results in the highest offense level is used; see
§3D1.3(b). The “same general type” of offense is to be construed broadly.
Examples: (1) The defendant is convicted of five counts of embezzling money from a bank. The five
counts are to be grouped together. (2) The defendant is convicted of two counts of theft of social security
checks and three counts of theft from the mail, each froma different victim. All five counts are to be
grouped together. (3) The defendant is con-victed of five counts of mail fraud and ten counts of wire fraud.
Although the counts arise from various schemes, each involves a monetary objective. All fifteen counts are
to begrouped together. (4) The defendant is convicted of three counts of unlicensed dealing in firearms. All
three counts are to be grouped together. (5) The defendant is convicted ofone count of selling heroin, one
hucsent

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

count of selling PCP, and one count of selling cocaine. Thecounts are to be grouped together. The
Commentary to §2D1.1 provides rules for combin-ing (adding) quantities of different drugs to determine a
single combined offense level.
(6) The defendant is convicted of three counts of tax evasion. The counts are to be groupedtogether. (7)
The defendant is convicted of three counts of discharging toxic substancesffom a single facility. The counts
are to be grouped together. (8) The defendant is con-victed on two counts of check forgery and one count of
uttering the first of the forgedchecks. All three counts are to be grouped together. Note, however, that the
utteringcount is first grouped with the first forgery count under subsection (a) of this guideline,so that the
monetary amount of that check counts only once when the rule in §3D1.3(b) is applied. But: (9) The
defendant is convicted of three counts of bank robbery. The counts are not to be grouped together, nor are
the amounts of money involved to be added.

A single case may result in application of several of the rules in this section. Thus, forexample,
1
example (8) in the discussion of subsection (d) involves an application of §3D1.2(a) followed by an
application of §3D1.2(d). Note also that a Group may consist of a single count; conversely, all counts may
form a single Group.
A defendant may be convicted of conspiring to commit several substantive offenses and also of
committing one or more of the substantive offenses. In such cases, treat the con-spiracy count as if it were
several counts, each charging conspiracy to commit one of the substantive offenses. See §lB1.2(d) and
accompanying commentary. Then apply the or-dinary grouping rules to determine the combined offense
level based upon the substan-tive counts of which the defendant is convicted and the various acts cited by
the conspir-acy count that would constitute behavior of a substantive nature. Example: The defend-ant is
convicted of two counts: conspiring to commit offenses A, B, and C, and committing offense A. Treat this
as if the defendant was convicted of (1) committing offense A; (2) con-spiracy to commit offense A; (3)
conspiracy to commit offense B; and (4) conspiracy to commit offense C. Count (1) and count (2) are
grouped together under §3D 1.2(b). Groupthe remaining counts, including the various acts cited by the
conspiracy count that would constitute behavior of a substantive nature, according to the rules in this
section.
2

Background: Ordinarily, the first step in determining.the combined offense level in a case involving
multiple counts is to identify those counts that are sufficiently related to be placedin the same Group of
Closely Related Counts (“Group”). This section specifies four situationsin which counts are to be grouped
hucsent

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

together. Although it appears last for conceptual reasons, subsection (d) probably will be used most
• frequently.
A primary consideration in this section is whether the offenses involve different victims.For example, a
defendant may stab three prison guards in a single escape attempt. Some wouldargue that all counts arising
out of a single transaction or occurrence should be grouped to-gether even when there are distinct victims.
Although such a proposal was considered, it was rejected because it probably would require departure inI
many cases in order to capture ade-quately the criminal behavior. Cases involving injury to distinct victims
are sufficiently com-parable, whether or not the injuries are inflicted in distinct transactions, so that each
such count should be treated separately rather than grouped together. Counts involving differentvictims (or
societal harms in the case of “victimless” crimes) are grouped together only as pro-vided in subsection (c)
or (d).
Even if counts involve a single victim, the decision as to whether to group them togethermay not always be
clear cut. For example, how contemporaneous must two assaults on thesame victim be in order to warrant
grouping together as constituting a single transaction oroccurrence? Existing case law may provide some
guidance as to what constitutes distinct of-fenses, but such decisions often turn on the technical language of
the statute and cannot becontrolling. In interpreting this Part and resolving ambiguities, the court should
look to theunderlying policy of this Part as stated in the Introductory Commentary.

Hist
oric
a!

Note

Effective November 1, 1987. Amended effective June 15, 1988
(amendment 45); November 1, 1989 (amend-ments 121,
253-256, and 303); November 1, 1990 (amendments 309,348,
and 349); November 1, 1991 (amendment 417); November 1,
1992 (amendment 458); November 1, 1993 (amendment 496);
November 1,1995 (amendment 534); November 1,1996
(amendment 538); November 1, 1998 (amendment 579);
Novem-ber 1,2001 (amendments 615,617, and 634);
November 1,2002 (amendment 638); January 25,2003
(amendment 648); November 1,2003 (amendment 656);
November 1,2004 (amendment 664); November 1,2005
(amendments 679 and 680); November 1,2007 (amendment
701).

S3D1.3. Offense Level Applicable to Each Group of Closely Related Counts
Determine the offense level applicable to each of the Groups as follows:

(a)

In the case of counts grouped together pursuant to §3D1.2(a)-(c), the offense level applicable to a

hucsent

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

Group is the offense level, deter-mined in accordance with Chapter Two and Parts A, B, and C ofChapter
Three, for the most serious of the counts comprising theGroup, i.e., the highest offense level of the counts
in the Group.

(b)
In the case of counts grouped together pursuant to §3D 1.2(d), the offense level applicable to a
Group is the offense level correspondingto the aggregated quantity, determined in accordance with Chapter
Two and Parts A, B and C of Chapter Three. When the counts in-volve offenses of the same general type to
which different guidelinesapply, apply the offense guideline that produces the highest offense level.

Commentary
Application Notes:
1
The “offense level” for a count refers to the offense level from Chapter Two after all adjustments
from Parts A, B, and C of Chapter Three.
2
When counts are grouped pursuant to §3D1.2(a)-(c), the highest offense level of thecounts in the
group is used. Ordinarily, it is necessary to determine the offense level for each of the counts in a Group in
order to ensure that the highest is correctly identified.Sometimes, it will be clear that one count in the
Group cannot have a higher offense levelthan another, as with a count for an attempt or conspiracy to
commit the completed of-fense. The formal determination of the offense level for such a count may be
unnecessary.
3
When counts are grouped pursuant to §3D 1.2(d), the offense guideline applicable to theaggregate
behavior is used. If the counts in the Group are covered by different guidelines,use the guideline that
produces the highest offense level. Determine whether the specificoffense characteristics or adjustments
from Chapter Three, Parts A, B, and C apply basedupon the combined offense behavior taken as a whole.
Note that guidelines for similar property offenses have been coordinated to produce identical offense levels,
at least when substantial property losses are involved. However, when small sums are involved thediffering
specific offense characteristics that require increasing the offense level to a cer-tain minimum may affect
the outcome.
4
Sometimes the rule specified in this section may not result in incremental punishment for additional
criminal acts because of the grouping rules. For example, if the defendantcommits forcible criminal sexual
abuse (rape), aggravated assault, and robbery, all against the same victim on a single occasion, all of the
hucsent

8

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/l

counts are grouped together under §3D1.2. The aggravated assault will increase the guideline range for the
rape. The rob-bery, however, will not. This is because the offense guideline for rape (§2A3.1) includesthe
most common aggravating factors, including injury, that data showed to be signifi-cant in actual practice.
The additional factor of property loss ordinarily can be taken intoaccount adequately within the guideline
range for rape, which is fairly wide. However,

an exceptionally large property loss in the course of the rape would provide grounds for an upward
departure. See §5K2.5 (Property Damage or Loss).
Background: This section provides rules for determining the offense level associated witheach Group of
Closely Related Counts. Summary examples of the application of these rules are provided at the end of the
Commentary to this Part.
Historical
Note

Effective November 1,1987. Amended effective November 1,1989 (amendments 267 and 303); November 1,
2001 (amendment 617); November 1, 2004 (amendment 674).

hucsent

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

69451050
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

